No. ______

In The

Supreme Court of the United States
JAMES WESLEY AMONETT, JR.,
V.

Petitioner,

COMMONWEALTH OF VIRGINIA,
Respondent.

On Petition for Writ of Certiorari to the
Supreme Court of Virginia

APPENDIX

Marvin D. Miller
Counsel of Record
Law Offices of Marvin D. Miller
1203 Duke Street
Alexandria, VA 22314
Tel.: (703) 548-5000
Fax: (703) 739-0179
ofc@mdmillerlaw.com
Alan J. Cilman
On Brief
10474 Armstrong Street
Fairfax, Virginia 22030
Telephone: (703) 621-6226
Facsimile: (703) 268-5182
acilman@aol.com
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond, Virginia 23219 (800) 847-0477

APPENDIX:
SUPREME COURT OF VIRGINIA ORDER,
9/13/19 ...................................................................... A1
COURT OF APPEALS OF VIRGINIA
OPINION, 2/19/19 ........................................... A2
COURT OF APPEALS OF VIRGINIA
ORDER, 9/18/18 ............................................. A15
COURT OF APPEALS OF VIRGINIA
OPINON, 5/3/18 ............................................. A17

A1
VIRGINIA:
In the Supreme Court of Virginia held at the
Supreme Court Building in the City of Richmond on
Friday the 13th day of September, 2019.
Record No. 190363
Court of Appeals No. 1613-17-4
James Wesley Amonett, Jr.,
Appellant,
against
Commonwealth ofVirginia,
Appellee.
From the Court of Appeals of Virginia
Upon review of the record in this case and
consideration of the argument submitted in support
of the granting of an appeal, the Court refuses the
petition for appeal.
Justice Chafin took no part in the resolution of
the petition.
A Copy,
Teste:
By: /s/ Douglas B. Robelen, Clerk

A2
PUBLISHED
COURT OF APPEALS OF VIRGINIA
Present: Chief Judge Decker, Judges Humphreys
and Huff
Argued at Alexandria, Virginia
OPINION BY JUDGE ROBERT J. HUMPHREYS
FEBRUARY 19, 2019
Record No. 1613-17-4
JAMES WESLEY AMONETT, JR.
v.
COMMONWEALTH OF VIRGINIA
FROM THE CIRCUIT COURT OF FAIRFAX
COUNTY
Bruce D. White, Judge
Alan J. Cilman for appellant.
Liam A. Curry, Assistant Attorney General (Mark R.
Herring, Attorney General, on brief), for appellee.
This appeal primarily involves three questions:
1) the degree to which promises of leniency made by
police officers render statements by the accused
“involuntary,” or constitute a grant of immunity
from a criminal conviction; 2) whether it is the court
or a jury that makes that determination, and 3) the
effect at trial of a forensic witness’ failure to appear
and testify at a preliminary hearing.

A3
James Wesley Amonett, Jr., (“Amonett”) appeals
the March 15, 2017 jury verdict of the Circuit Court
of Fairfax County (“circuit court”) convicting him of
two counts of possession with intent to distribute
marijuana in violation of Code § 18.2-248.1.
I. BACKGROUND
On July 27, 2015, Corporal Andrew Perry
(“Officer Perry”) of the Herndon Police Department
stopped Amonett’s vehicle. When Officer Perry
approached the vehicle, he smelled marijuana.
Officer Perry observed that Amonett appeared to be
breathing heavily and was nervous. Investigating
the odor of marijuana, Officer Perry searched
Amonett’s vehicle’s center console, where he found
marijuana and associated paraphernalia. Officer
Perry also found a backpack on the passenger side
floor containing a safe which gave off a strong odor of
marijuana. Detective James Passmore (“Detective
Passmore”) of the Herndon Police Department
arrived at the scene to assist Officer Perry. Officer
Perry and Detective Passmore told Amonett that “if
he cooperated further he would possibly be able to go
home that night without being arrested or charged.”
Detective Passmore presented Amonett with a
consent to search form for the safe in the backpack,
which Amonett signed. Inside the safe the officers
found half a pound of marijuana. The officers
transported Amonett to the Herndon police station.
At the police station, Amonett was appraised of
his Miranda rights and was interviewed. During the
interview, Amonett stated that he had received a
two-pound parcel of marijuana from California, that
the half pound found in the safe had been part of

A4
this shipment, and that the remainder of the
shipment was at his residence. Amonett signed
another consent to search form related to his
residence where they secured the remaining
marijuana along with a scale, paraphernalia, and
$270 in cash.
Amonett was released and was not arrested and
charged until October 2015. Amonett filed a written
motion to suppress his statements to police. A
hearing on that motion was held on February 24,
2017. No transcript of that hearing or statement of
facts has been provided on appeal. On March 10,
2017, Amonett filed a written motion in limine to bar
the testimony of Dr. Eugene Reichenbecher (“Dr.
Reichenbecher”) or in the alternative to dismiss the
indictment based upon Dr. Reichenbecher’s failure to
appear and testify at the preliminary hearing. A
hearing on that motion took place immediately
before trial began on March 14, 2017, and the motion
was denied. Amonett was tried by a jury on March
14-15, 2017. During the trial, Amonett testified that
he made purchases of marijuana from California,
receiving them through the mail and distributed
them, and that he had been in the process of
distributing the most recent shipment when stopped
by Officer Perry. Dr Reichenbecher, a forensic
scientist, testified that he had chemically tested the
seized material to verify that it was marijuana. The
jury convicted Amonett, recommending a sentence of
fourteen days in jail and a fine of $3,000. The circuit
court sentenced Amonett accordingly on July 7,
2017. This appeal follows.

A5
II. ANALYSIS
A. Assignments of Error
Although his arguments are convoluted and
overlapping, Amonett assigns four errors to the
circuit court. First, he asserts that the circuit court
erred by failing to dismiss the indictments on the
grounds that he had been granted immunity by the
police; second, that the circuit court erred in failing
to instruct the jury that they should acquit Amonett
if they determine that the police had made a promise
that he would not be prosecuted; third, that the
circuit court erred in failing to suppress his
statements to the police on the grounds that they
were involuntary in that they were the product of an
agreement that he would not be prosecuted; and
fourth, that the circuit court erred in allowing the
testimony of a chemist as an expert witness in the
circuit court when that witness had failed to appear
pursuant to a subpoena to testify at the preliminary
hearing in the general district court.
B. Whether Amonett’s Errors Were Properly
Preserved
Three of Amonett’s four assignments of error
concern an alleged “deal” not to prosecute between
Amonett and the police. Following his indictment,
Amonett made a motion to suppress the statements
he made to Detective Passmore and Officer Perry as
involuntarily obtained. At a pre-trial hearing
regarding this motion, Amonett apparently argued,
as he does on appeal, that the statements made by
the police, “if he cooperated further he would

A6
possibly be able to go home that night without being
arrested or charged,” constituted an agreement not
to prosecute.
However, while Amonett provided a transcript of
the trial, he did not provide a transcript of the
suppression hearing. The responsibility to provide a
transcript rests with the appellant, and “[w]hen the
appellant fails to ensure that the record contains
transcripts or a written statement of facts necessary
to permit resolution of appellate issues, any
assignments of error affected by such omission shall
not be considered.” Rule 5A:8(b)(4)(ii). Without the
benefit of a transcript or an agreed upon statement
of facts, we cannot say that the circuit court erred in
failing to suppress Amonett’s statements. While the
statement made by the officers to Amonett was
discussed at trial, at that point the issue was the
admissibility of Amonett’s replies, not whether the
officer’s statements constituted a grant of
immunity—an issue that should have been, and
presumably was, decided in the pre-trial suppression
hearing. We have no way of knowing what specific
legal arguments were advanced nor what additional
evidence was presented at the pre-trial hearing that
formed the basis for the circuit court’s decision.
Moreover, although Amonett’s first assignment of
error alleges error on the part of the circuit court for
failing to dismiss the indictment, the written motion
filed in the circuit court only seeks suppression of
the statements, not dismissal of the indictment. For
these reasons, in the absence of a record of the pretrial hearing, Rule 5A:18 bars our consideration of
that assignment of error.
Regarding Amonett’s third assignment of error, a
fatal flaw emerges from Amonett’s argument.

A7
Amonett is correct that “cooperation/immunity
agreements can be somewhat analogous to plea
agreements.” Lampkins v. Commonwealth, 44 Va.
App. 709, 724 (2005). However, Amonett fails to
recognize the fact that cooperation/immunity
agreements and plea agreements are entered into by
prosecutors, not the police.
Amonett does not cite any authority extending
the rules governing plea bargaining or grants of
immunity to interactions with the police, instead he
simply conflates police with prosecutors in his
argument. The respective roles of police and
prosecutors are distinct, and they serve different
functions and observe different restrictions.
In Rodgers v. Commonwealth, 227 Va. 605 (1984),
similarly to the present case, the defendant claimed
that his confession was involuntary as it had been
procured by the police through a “promise of
leniency.” Id. at 616. Our Supreme Court noted that
voluntariness must be examined through a
consideration of the totality of the circumstances and
whether the statement in question was “the product
of an essentially free and unconstrained choice by its
maker, or whether the maker’s will has been
overborne and his capacity for self-determination
critically impaired.” Id. at 609. The Court in Rodgers
further noted that “the [United States] Supreme
Court [has] made clear that even an outright
falsehood by a police interrogator is but another
factor to be considered in evaluating the totality of
the circumstances.” Id. at 616 (citing Frazier v.
Cupp, 394 U.S. 731 (1969)). The promise of leniency
our Supreme Court found no fault with in Rodgers
was “[w]e’re gonna [sic] submit this to the
Commonwealth Attorney and then he makes the

A8
decision.” Id. Here, there was no mention of the
Commonwealth Attorney, but simply a statement
that if Amonett cooperated he could possibly go
home that night without being arrested. A
statement, we note, that was strictly adhered to by
the police officers who made it—Amonett did in fact
go home that night without being arrested or
charged.
Rodgers illustrates the fact that while police
have discretion whether to make an arrest or not, it
is the Commonwealth Attorney that makes the
decision whether to prosecute. In the absence of
clear evidence that a police officer is acting as an
agent of the prosecution, an exercise of discretion by
a police officer to forego an arrest does not control a
prosecutor’s discretion whether to prosecute any
more than an arrest by police would.
The only scenario in which the police could have
granted Amonett immunity from prosecution is if
they were acting as agents of the Commonwealth
Attorney. Agency is “a fiduciary relationship
resulting from one person’s manifestation of consent
to another person that the other shall act on his
behalf and subject to his control, and the other
person’s manifestation of consent so to act.” Acordia
of Virginia Ins. Agency, Inc. v. Genito Glenn, L.P.,
263 Va. 377, 384 (2002) (quoting Reistroffer v.
Person, 247 Va. 45, 48 (1994)). While police and
prosecutors work together and ideally do so smoothly
and cooperatively, they are separate, independent
governmental entities with differing missions and
responsibilities. The police officers in this case were
clearly not express agents of the prosecution, as
there is nothing in the record before us to indicate
that they were authorized by the Commonwealth

A9
Attorney to negotiate an immunity agreement on
behalf of that office. Neither were the police officers
apparent agents of the prosecution. “‘[A]pparent or
ostensible agency’ . . . means ‘[a]n agency created by
operation of law and established by a principal’s
actions that would reasonably lead a third person to
conclude that an agency exists.’” Sanchez v.
Medicorp Health Sys., 270 Va. 299, 304 (2005)
(quoting Black’s Law Dictionary 67 (8th ed. 2004)).
There is no indication that Amonett interacted with
the Commonwealth Attorney’s office prior to his
interaction with the police, and therefore did not
have any basis for believing that the officers were
acting as the prosecution’s agents.
C. Whether the Circuit Court Erred in Denying
Amonett’s Jury Instruction
Amonett’s second assignment of error is
essentially that the jury should have been instructed
to return a verdict of “not guilty” if they determined
that he had been granted immunity by the police.
Determining whether such immunity agreements
exist is “generally governed by the law of contracts.”
Hood v. Commonwealth, 269 Va. 176, 181 (2005)
(citations omitted). “The question of whether [a
valid] contract exists is a pure question of law.”
Spectra-4, LLP v. Uniwest Commercial Realty, Inc.,
290 Va. 36, 42 (2015). As a question of law, the
existence of a contract is not a proper question for
submission to the jury. “It is fundamental that the
court must respond to questions of law and the jury
to questions of fact.” Gottlieb v. Commonwealth, 126
Va. 807, 812 (1920). Amonett, then, is at an impasse.

A10
If an agreement not to prosecute existed between
himself and police, it was a contract, the existence of
which was a matter of law properly resolved only by
the circuit court at the pre-trial hearing, of which
there is no record before us. In any event, it was not
error for the circuit court to refuse to instruct the
jury on that question.
D. Whether the Circuit Court Erred by Allowing Dr.
Reichenbecher to Testify
Amonett’s final assignment of error asserts that
the circuit court erred by allowing
Dr. Reichenbecher to testify at trial because he did
not appear at a preliminary hearing despite multiple
subpoenas from Amonett.
“The admissibility of evidence is within the
broad discretion of the trial court, and a ruling will
not be disturbed on appeal in the absence of an
abuse of discretion.” Abdo v. Commonwealth, 64 Va.
App. 468, 473 (2015) (quoting Blain v.
Commonwealth, 7 Va. App. 10, 16 (1988)). In this
context, an abuse of discretion occurs where the
circuit court makes an error of law in admitting
evidence. See Taylor v. Commonwealth, 28 Va. App.
1, 9 (1998).
Prior to trial, Amonett was presented with a
certificate of analysis regarding the testing Dr.
Reichenbecher had performed on the seized
marijuana. Amonett subpoenaed Dr. Reichenbecher
to appear at a preliminary hearing held in General
District Court of Fairfax County on April 26, 2016.
Dr. Reichenbecher did not appear, and the hearing
was continued until July 26, 2016. Dr.
Reichenbecher was again subpoenaed and again

A11
failed to appear. The hearing was continued a third
time, to November 1, 2016, where Dr. Reichenbecher
again failed to appear, at which point the hearing
was conducted over Amonett’s objection. Despite
ignoring these subpoenas, Dr. Reichenbecher
appeared as a witness for the Commonwealth at
trial. Amonett filed a motion in limine when Dr.
Reichenbecher was called, objecting that he was not
able to challenge the evidence at the preliminary
hearing, per Code § 19.2-187.1(F), which provides, in
pertinent part, that
[t]he accused in any hearing or trial in which
a certificate of analysis is offered into
evidence shall have the right to call the
person performing such analysis or
examination or involved in the chain of
custody as a witness therein, and examine
him in the same manner as if he had been
called as an adverse witness.
Addressing this argument requires us to engage
in statutory interpretation. In doing so, we “have but
one object, to which all rules of construction are
subservient, and that is to ascertain the will of the
legislature, the true intent and meaning of the
statute, which are to be gathered by giving to all the
words used their plain meaning.” Lucy v. Cty. of
Albemarle, 258 Va. 118, 129-30 (1999) (quoting
Tyson v. Scott, 116 Va. 243, 253 (1914)). Further, we
“constru[e] all statutes in pari materia in such
manner as to reconcile, if possible, any discordant
feature which may exist, and make the body of the
laws harmonious and just in their operation.” Id.

A12
Initially we note that Amonett alleges no
procedural fault with respect to Code § 19.2-187.1(F)
regarding the testimony of Dr. Reichenbecher at his
trial. He essentially argues that Dr. Reichenbecher
should not have been permitted to testify in his
circuit court trial because of error he alleges
occurred during his preliminary hearing in a
different court. The criminal appellate jurisdiction of
this Court is limited to reviewing error in the circuit
courts of the Commonwealth. See Code § 17.1-405(1).
Moreover, despite its inclusive phrasing, the
language “in any hearing or trial,” found in Code §
19.2-187.1 is inapplicable to a preliminary hearing.
Code § 19.2-187.1(A) begins “[i]n any trial and in any
hearing other than a preliminary hearing, in which
the attorney for the Commonwealth intends to offer
a certificate of analysis.” That this caveat was
intended to apply to Code § 19.2-187.1(F) is obvious
from an in pari materia reading of other related
statutes. For example, Code § 19.2-187(A) provides a
different procedure for introducing a certificate of
analysis in a preliminary hearing, and then refers
the reader to Code § 19.2-187.1(A) as an alternative
means of validation:
In any hearing or trial of any criminal
offense or in any proceeding brought
pursuant to Chapter 22.1 (§ 19.2-386.1 et
seq.), a certificate of analysis of a person
performing an analysis or examination, duly
attested by such person, shall be admissible
in evidence as evidence of the facts therein
stated and the results of the analysis or
examination referred to therein, provided
that (i) the certificate of analysis is filed with

A13
the clerk of the court hearing the case at
least seven days prior to the proceeding if the
attorney for the Commonwealth intends to
offer it into evidence in a preliminary hearing
or the accused intends to offer it into
evidence in any hearing or trial, or (ii) the
requirements of subsection A of § 19.2-187.1
have been satisfied and the accused has not
objected to the admission of the certificate
pursuant to subsection B of § 19.2-187.1.
Code § 19.2-187(A).
The disjunctive “or” as used in the statute
provides the Commonwealth with the opportunity of
filing the certificate seven days prior to a
preliminary hearing or satisfying the Code § 19.2187.1(A) requirements. Likewise, Code § 19.2183(D), discussing procedure during preliminary
hearings, states that “[a]t any preliminary hearing
under this section, certificates of analysis and
reports prepared pursuant to §§ 19.2-187 and 19.2188 shall be admissible without the testimony of the
person preparing such certificate or report.” Read
together, these statutes clearly indicate that at a
preliminary hearing the Commonwealth may
introduce the certificate itself.1

Code § 19.2-187.1(F) prescribes no remedy for its violation. It
is a directory statute stating that the accused “shall” have the
right to call the scientist performing the analysis. “[A] ‘shall’
command in a directory statute carries no specific, exclusive
remedy. Instead, it empowers the court to exercise discretion in
fashioning a tailored remedy, if one is called for at all.”
Rickman v. Commonwealth, 294 Va. 531, 537 (2017). As such,
exclusion of evidence is not the only remedy, nor even the most
obvious remedy, for a breach of this statutory right.
1

A14
Amonett does not assert that the certificate was
not filed seven days in advance of the preliminary
hearing.
Moreover, ample other evidence also showed that
the substance confiscated was marijuana—indeed
Amonett himself testified that it was “high quality”
marijuana. The jury, in its fact-finding capacity,
could certainly have taken Amonett at his own word
in the absence of Dr. Reichenbecher’s testimony and
found that the substance was marijuana, rendering
the same verdict and any potential error necessarily
harmless. For all of these reasons, we find no merit
to this assignment of error.
III. CONCLUSION
Amonett provides neither case law nor, crucially,
a sufficient record to support his proposition that
promises of leniency made by the police constitute a
binding immunity agreement requiring dismissal of
the indictment or rendering Amonett’s incriminating
statements involuntary or otherwise subject to
suppression. We also hold that the circuit court
correctly concluded that the existence of such an
agreement is not a proper question for the jury.
Finally, we discern no error in the admission of Dr.
Reichenbecher’s testimony, which substantively
echoed Amonett’s own on the key point that the
substance seized by police was marijuana. For these
reasons, the judgment of the circuit court is
affirmed.
Affirmed.

A15
VIRGINIA:
In the Court of Appeals of Virginia on Tuesday the
18th day of September, 2018
Record No. 1613-17-4
Circuit Court No. FE-2016-1157
James Wesley Amonett, Jr.,
Appellant,
against
Commonwealth of Virginia,
Appellee.
From the Circuit Court of Fairfax County
Before Judges Alston, O’Brien and AtLee
This petition for appeal is granted in part and
denied in part. And an appeal is awarded to the
appellant from a judgment of the Circuit Court of
Fairfax County, dated July 10, 2017, with respect to
the additional assignment of error:
III. The trial court erred by admitting
Appellant James Wesley Amonett, Jr.’s in
custodial statements because: b) Those
statements were induced by and were the
product of multiple promises by the police to
Amonett, that if he cooperated and provided
the information and the permissions that the
police were requesting, he would not be
prosecuted.

A16
No additional bond is required. The clerk is
directed to certify this action to the trial court and to
all counsel of record.
Pursuant to Rule 5A:25, an appendix is required
in this appeal and shall be filed by the appellant at
the time of the filing of the opening brief.
The remainder of the petition for appeal in this
case remains denied for the reasons set forth in the
order of this Court dated May 3, 2018.
This Court’s records reflect that Alan J. Cilman,
Esquire, is counsel of record for appellant in this
matter.
A Copy,
Teste:
Cynthia L. McCoy, Clerk
/s/ Deputy Clerk

A17
VIRGINIA:
In the Court of Appeals of Virginia on Tuesday the
3rd day of May, 2018
Record No. 1613-17-4
Circuit Court No. FE-2016-1157
James Wesley Amonett, Jr.,
Appellant,
against
Commonwealth of Virginia,
Appellee.
From the Circuit Court of Fairfax County
Per Curiam
This petition for appeal has been reviewed by a
judge of this Court, to whom it was referred
pursuant to Code § 17.1-407(C), and is granted in
part and denied in part. An appeal is awarded to the
appellant from a judgment of the Circuit Court of
Fairfax County, dated July 10, 2017, with respect to
the following assignments of error:
I. The trial court erred by refusing to dismiss
the case when the police promised that if
appellant cooperated and worked for them,
which he did, he would not be charged with
the two counts of possession with the intent
to distribute marijuana;
II. The trial court erred by refusing to give
jury instruction T, which would have allowed

A18
the jury to determine the factual issue of
whether the police had made a deal with
appellant; and
V. The trial court erred by denying his
“Motion in Limine, or in the Alternative
Motion to Dismiss, Motion to Remand” and
allowing the Commonwealth’s chemist, who
appellant had twice subpoenaed for
preliminary hearing but did not appear, to
testify at trial, or refusing to remand for a
new preliminary hearing, or to dismiss the
charges.
Appeal bond or an irrevocable letter of credit in
the amount of $500 shall be posted as required by
Code § 8.01-676.1(B). The clerk is directed to certify
this action to the trial court and to all counsel of
record.
Pursuant to Rule 5A:25, an appendix is required
in this appeal and shall be filed by the appellant at
the time of the filing of the opening brief.
The remainder of the petition for appeal is
denied for the following reasons:
III. and IV. Appellant contends that the trial
court erred by admitting his statements in violation
of Miranda v. Arizona, 384 U.S. 436 (1966), and
because they were induced by the promise that he
would not be prosecuted in return for his
cooperation. Appellant also argues that the trial
court erred by denying his motion to suppress all the
evidence obtained as a result of an illegal stop of his
vehicle. Appellant filed written motions to suppress
his statements and the recovered evidence on these
grounds, and the trial court denied the motions

A19
following a hearing on February 24, 2017. The record
does not contain a transcript or written statement of
facts of the suppression hearing. See Rule 5A:8(a)
and (c).
We have reviewed the record and the petition for
appeal. We conclude that a transcript or written
statement of facts of the suppression hearing is
indispensable to a determination of these
assignments of error. See Smith v. Commonwealth,
32 Va. App. 766, 772, 531 S.E.2d 11, 14 (2000);
Turner v. Commonwealth, 2 Va. App. 96, 99-100, 341
S.E.2d 400, 402 (1986). “When the appellant fails to
ensure that the record contains transcripts or a
written statement of facts necessary to permit
resolution of appellate issues, any assignments of
error affected by such omission shall not be
considered.” Rule 5A:8(4)(ii). Appellant failed to
ensure that the record contains a transcript or
written statement of facts necessary to permit us to
resolve whether the trial court erred by denying the
motions to suppress. Therefore, we will not consider
these issues on appeal. Rule 5A:8(4)(ii).
VI. Appellant asserts that the Commonwealth
failed to establish an unbroken chain of custody
because two sets of unknown and unexplained
initials were on each of the packages of evidence.
Officer J.J. Passmore testified that he sealed two
packages of seized marijuana in two separate
evidence bags, marking each evidence bag with his
initials. Passmore secured the two evidence bags in
an evidence locker. Passmore also placed a request
form with the secured evidence, for the Department
of Forensic Science (DFS) to perform a lab analysis
of the seized marijuana.

A20
Officer Garrett Daniel Polowey testified that he
obtained the two evidence bags from the secured
evidence locker to transfer them to a secured drug
locker to await transport to the DFS lab for testing.
Polowey confirmed that the two evidence bags were
sealed, and he placed his initials and the date on the
evidence bags. When Polowey returned to transport
the evidence bags to DFS, he confirmed they were
still sealed and he delivered them to Steven Delfino
at DFS. Polowey signed the request form as the
submitting officer, as did C. Debruhl, the person who
accompanied Polowey to DFS, and Delfino signed it
as the person who received the bags. Polowey
acknowledged that there were other initials on the
evidence bags, but he could only account for his,
Passmore’s, and Delfino’s initials. Polowey opined
that the additional initials were placed on the bags
after he had delivered them to DFS based on the
sequence and placement of the initials.
Eugene Reichenbecher testified that he worked
at DFS and conducted the analysis on the suspected
marijuana. Reichenbecher confirmed that his initials
were on the submitted evidence bags. Reichenbecher
explained that he examined the two bags to ensure
the seals were intact, and he made notes about their
contents. He then performed tests that confirmed the
suspected marijuana was in fact marijuana as
indicated on the certificate of analysis.
“The purpose of the chain of custody rule is to
establish that the evidence obtained by the police
was the same evidence tested.” Jeter v.
Commonwealth, 44 Va. App. 733, 737, 607 S.E.2d
734, 735 (2005) (quoting Robertson v.
Commonwealth, 12 Va. App. 854, 857, 406 S.E.2d
417, 419 (1991)). “[T]o satisfy the chain of custody
requirement, the proponent of the evidence must

A21
show ‘with reasonable certainty that the item [has]
not been altered, substituted, or contaminated prior
to analysis, in any way that would affect the results
of the analysis.’” Id. at 737, 607 S.E.2d at 736
(quoting Crews v. Commonwealth, 18 Va. App. 115,
119, 442 S.E.2d 407, 409 (1994)). A certificate of
analysis “by . . . the Division of Forensic Science . . .
shall be prima facie evidence in a criminal . . .
proceeding as to the custody of the material
described therein from the time such material is
received by an authorized agent of such laboratory
until such material is released subsequent to such
analysis or examination.” Code § 19.2-187.01.
Further, Code § 19.2-187.01 deems the receiving
person’s signature on the request form to be prima
facie evidence that that person is an authorized
agent. “A court need not hear . . . from every witness
who physically handled the samples for the
certificate [of analysis] to be admissible. Nor must
the Commonwealth’s evidence ‘exclude every
conceivable possibility of substitution, alteration, or
tampering.’” Hargrove v. Commonwealth, 53 Va.
App. 545, 554-55, 673 S.E.2d 896, 900-01 (2009)
(quoting Anderson v. Commonwealth, 48 Va. App.
704, 717, 634 S.E.2d 372, 378 (2006)). “Where there
is mere speculation that contamination or tampering
could have occurred, it is not an abuse of discretion
to admit the evidence and let what doubt there may
be go to the weight to be given the evidence.” Brown
v. Commonwealth, 21 Va. App. 552, 556, 466 S.E.2d
116, 117 (1996) (quoting Reedy v. Commonwealth, 9
Va. App. 386, 391, 388 S.E.2d 650, 652 (1990)).
Appellant claims that the unidentified initials on
the two evidence bags prove there was a break in the
chain of custody. However, Passmore and Polowey
testified that the bags were secured in evidence
lockers before Polowey transported the bags to DFS

A22
and that the seals had not been broken. Polowey,
and the person who accompanied him to DFS,
tendered the bags to Delfino, an authorized agent of
DFS. Polowey asserted that the initials in question
were placed on the evidence bags after he delivered
them to DFS. Further, Reichenbecher inspected the
bags to ensure the seals were intact before he
conducted the tests. This evidence, taken in its
entirety, provides reasonable certainty that the
evidence seized was the same evidence
Reichenbecher tested and found to be marijuana.
Any speculation of contamination or tampering
suggested by the unidentified initials went to the
weight of the evidence, not its admissibility. Id.
Accordingly, the trial court did not err by finding
that the Commonwealth established a proper chain
of custody to allow admission of the marijuana and
the certificate of analysis.
This order is final unless, within fourteen days
from the date of this order, there are further
proceedings pursuant to Code § 17.1-407(D), and
Rule 5A:15(a) or 5A:15A(a), as appropriate. If
appellant files a demand for consideration by a
three-judge panel, pursuant to those rules the
demand shall include a statement identifying how
this order is in error.
This Court’s records reflect that Alan J. Cilman,
Esquire, is counsel of record for appellant in this
matter.
A Copy,
Teste:
Cynthia L. McCoy, Clerk
By /s/ Deputy Clerk

